W A I V E R
SUPREME COURT OF THE UNITED STATES
No.

20-7846

Ortiz

Breslin et al.
(Petitioner)

(Respondent)

V.

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
I am filing this waiver on behalf of all respondents.
I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).
Signature:

Brian D. Ginsberg

Date:

5/17/21

Digitally signed by Brian D. Ginsberg
Date: 2021.05.17 14:12:25 -04'00'

(Type or print) Name Brian D. Ginsberg
Mr.

Ms.

Mrs.

Firm

Office of the New York State Attorney General

Address

The Capitol

City & State

Albany, NY

Phone

518-776-2040

Miss

Zip 12224
Email

brian.ginsberg@ag.ny.gov

A copy of this form must be sent to petitioner’s counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

cc:

Lawrence T. Hausman
The Legal Aid Society
199 Water Street
New York, New York 10038

